               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




     Surface Visibility – Transportation
      Operations – Oklahoma District

                       Audit Report




                                         September 25, 2013

Report Number NO-AR-13-007
                                                                   September 25, 2013

                                                  Surface Visibility – Transportation
                                                    Operations – Oklahoma District

                                                        Report Number NO-AR-13-007



BACKGROUND:
The U.S. Postal Service uses the            employees stated it was more convenient
Surface Visibility (SV) system to collect   to use the workarounds than to actually
data to support planning, management,       perform the scans. As a result, the SV
and optimization of transportation.         scan compliance performance scores for
Employees scan barcodes on mail             some area and district staff may have
containers to provide visibility into the   been artificially inflated. This information
volume of mail at various points in the     was provided to the OIG, Office of
surface transportation network. This        Investigations, for action as appropriate.
gives managers information to manage        Further, data from the SV system was
resources, track mail volume, and           unreliable and not useful to management
identify and correct transportation         in optimizing transportation. For example,
problems.                                   management missed an opportunity to
                                            eliminate or modify 38 highway contract
Our objective was to assess SV system       route trips and reduce 3,636 postal
use in transportation operations in the     vehicle service driver workhours - saving
Oklahoma District.                          an average of $445,900 annually in
                                            transportation costs.
WHAT THE OIG FOUND:
The Oklahoma District could more            WHAT THE OIG RECOMMENDED:
effectively execute SV system scanning.     We recommended the vice president,
Controls were not in place to ensure        Southern Area Operations, ensure
scanning integrity. We observed that        containers have the proper barcodes for
employees were estimating trailer bed       scanning; eliminate the manual and
loads and entering the information into     prescan barcode workarounds; put
the SV system, instead of scanning          controls in place to prevent recurrence of
actual containers. We also found            improper scanning; and train employees
employees were not always scanning          on the proper SV scanning policies and
actual truck arrival and departure times,   procedures. We also recommended
but were sometimes using workarounds,       management verify and document the
such as scanning preprinted,                elimination or modification of 38 trips from
photocopied barcodes.                       highway contract routes and, review and
                                            eliminate 3,636 workhours from postal
These conditions occurred because           vehicle service schedules or document
containers did not always contain           the reasons for retaining the workhours.
properly barcoded placards and there        Link to review the entire report
was inadequate management oversight
and employee training. Also, some
September 25, 2013

MEMORANDUM FOR:             JO ANN FEINDT
                            VICE PRESIDENT, SOUTHERN AREA OPERATIONS


                                 E-Signed by Robert Batta
                               VERIFY authenticity with e-Sign




FROM:                       Robert J. Batta
                            Deputy Assistant Inspector General
                             for Mission Operations

SUBJECT:                    Audit Report – Surface Visibility – Transportation
                            Operations – Oklahoma District
                            (Report Number NO-AR-13-007)

This report presents the results of our audit of Surface Visibility – Transportation
Operations – Oklahoma District (Project Number 13XG021NO000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James Ballard, director,
Network Processing and Transportation, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Surface Visibility – Transportation Operations                                                       NO-AR-13-007
 – Oklahoma District


                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Mail Container Scanning ................................................................................................. 2

Trip Arrival and Departure Scanning ............................................................................... 4

Recommendations .......................................................................................................... 6

Management’s Comments .............................................................................................. 6

Evaluation of Management’s Comments ......................................................................... 7

Appendix A: Additional Information ................................................................................. 8

   Background ................................................................................................................. 8

   Objective, Scope, and Methodology ............................................................................ 9

   Prior Audit Coverage ................................................................................................. 10

Appendix B: Assessment of Postal Vehicle Service and Highway Contract Routes
     Using Surface Visibility Scan Data ..................................................................... 11

Appendix C: Monetary Impacts ..................................................................................... 15

Appendix D: Management's Comments ........................................................................ 16
Surface Visibility – Transportation Operations                                           NO-AR-13-007
 – Oklahoma District



Introduction

This report presents the results of our self-initiated audit of Surface Visibility (SV) –
Transportation Operations – Oklahoma District (Project Number 13XG021NO000). Our
objective was to assess SV system use in transportation operations in the Oklahoma
District. Our audit included a review of highway contract routes (HCR) and Postal
Vehicle Service (PVS) schedules using data generated from SV. See Appendix A for
additional information about this audit.

The goal of the SV system is to collect data on surface mail transportation at the mail
transport equipment handling unit (sack, tray, and tub) and rolling stock 1 container level
and to track volume through the surface network. Employees are required to perform
scans for SV to be successful. The data is needed to support planning, management,
and optimization of the transportation network which directly impacts the U.S. Postal
Service’s Delivering Results, Innovation, Value and Efficiency initiative, Network
Optimization.

To collect SV data, clerks, mail handlers, and dock personnel are required to scan
handling units and containers at various points in the mail processing and dispatch
process using both passive 2 and manual scanning methods. These scans are used to
calculate trailer utilization and record trailer arrivals and departures. The scanned data
also assists in monitoring late transportation, which can be a result of processing
delays, poor dock management, delays related to weather, or contractor issues. The
data feeds into SVWeb, the Transportation Information Management Evaluation System
(TIMES), and Electronic Data Warehouse for use in transportation analyses. If this data
is inaccurate, the resulting analyses will also be inaccurate.

Prior to implementation of the SV system in 2004, the Postal Service relied on manually
entering transportation utilization and tracking data into TIMES to perform transportation
analyses.

Conclusion

The Oklahoma District could more effectively execute SV system scanning for
transportation operations. We determined controls were not in place to ensure the
integrity of the scanning. We observed containers did not always have properly
barcoded placards and that employees were estimating trailer bed loads and entering
this information into the scanners for upload into the SV system, instead of scanning
actual containers as required. We also found that employees were not always scanning
actual truck arrival and departure times. Instead, they were sometimes using
workarounds, such as scanning pre-printed, photocopied barcodes for arrival and

1
    Rolling stock is another term for all purpose mail containers used to transport mail to and from facilities.
2
    A passive scan occurs via mechanized means at various points through processing and dispatch of mail products.
                                                              1
Surface Visibility – Transportation Operations                                         NO-AR-13-007
 – Oklahoma District


departure times for trucks. These conditions occurred because containers were not
always properly barcoded. In addition, there was inadequate management oversight
and employee training. We also found some employees stated it was more convenient
to use the workarounds than perform the actual barcoded container scans or actual
trailer scans, as required.

As a result, the SV scan compliance performance scores3 for some area and district
staff may have been artificially inflated. This information was provided to the U.S. Postal
Service Office of Inspector General (OIG), Office of Investigations, for action as
appropriate. Further, the data from the SV system was unreliable and not a useful
management tool. Management in the Oklahoma District was not able to take
advantage of SV system features to optimize the transportation network, including using
SV calculated mail volumes to adjust trips. For example, the Postal Service missed an
opportunity to use accurate data to identify and eliminate or modify 38 trips from HCR
with estimated savings of $265,000 annually. In addition, the Tulsa Processing and
Distribution Center (P&DC) could have removed 3,636 unnecessary workhours from
existing PVS schedules, saving an average of $184,000 annually. See Appendix B for
a detailed analysis of this topic and Appendix C for monetary impact.

Mail Container Scanning

Transportation container scan data residing in the SV system was unreliable in the
Oklahoma District. We found that:

    Some containers were not properly placarded with barcodes and employees
     neglected to scan properly placarded containers.

    Empty mail equipment was not scanned as it was loaded and unloaded from
     trailers.

    Employees used workarounds and subjectively entered trailer bed load
     percentages into the scanners because it was convenient.

We corroborated this condition by observing 202 trips between January 29 and
February 5, 2013. From those observations, we found that 18 percent of the outbound
trips and 13 percent of the inbound trips (aggregated to 15 percent) had containers
scanned as they were loaded or unloaded from the trailers. However, because the
facilities used improvised workarounds, what was officially reported in the SV system
was a much higher container scan compliance score of 75 percent. This amounted to a
60 percent scan variance. See Chart 1.




3
  National Performance Assessment is a web-based system that collects performance-related metrics — such as
retail revenue, on-time express mail delivery, scan compliance, and so forth — from source systems across the
organization. These metrics are translated into web-based balanced scorecards that can be used to monitor the
performance of both the entire enterprise and of individual units across the nation.

                                                        2
Surface Visibility – Transportation Operations                                          NO-AR-13-007
 – Oklahoma District


                               Chart 1. Oklahoma District Observed
                      Container Scan Percentages Compared to SVWeb 4




    Source: OIG observations and SVWeb.

This occurred because mail containers were not always assigned barcoded placards
needed for scanning. In addition, some employees were not scanning properly
placarded containers and stated it was more convenient to manually input the
information. For an example of an unbarcoded placard on a container of mail about to
be dispatched to an associate office see Figure 1.




4
 Data from SV scanning is downloaded into SVWeb which is an application used by management to perform
analysis and track scanning performance. SVWeb reported scan percentage is the total container score which is the
sum of performed placard assign, placard close, container load, and container unload divided by expected.
Observations were conducted from January 29 through February 5, 2013. SVWeb data are for the period of
January 26 through February 8, 2013.

                                                        3
Surface Visibility – Transportation Operations                                             NO-AR-13-007
 – Oklahoma District




           Figure 1. Oklahoma City Container without a Properly Assigned Placard




                                   Source: OIG photograph taken January 30, 2013.

Trip Arrival and Departure Scanning

We also found transportation trip arrival and departure scan data residing in the SV
system unreliable in the Oklahoma District. Employees were not always scanning actual
truck arrival and departure times. Instead, they were sometimes using preprinted,
photocopied barcodes for arrival and departure times for trucks. See Figure 2 for an
example of a clipboard containing photocopied barcodes which employees used in
place of actually performing scans.

                Figure 2. Tulsa P&DC Clipboard of Photocopied Barcodes




                         Source: OIG Tulsa P&DC, clipboard of photocopied barcodes
                         used to prescan trip departures and arrivals, February 5, 2013.

Improper scanning occurred because there was inadequate management oversight and
employee training. Some employees stated this occurred because it was more
convenient than performing the actual scans.
                                                       4
Surface Visibility – Transportation Operations                      NO-AR-13-007
 – Oklahoma District



The process also inflates the reported scan compliance scores for the Oklahoma
District. For example, for the fiscal year (FY) through May 3, 2013, the Oklahoma City
scored a 99.0 percent compliance score – one of the best in the nation. The Tulsa
P&DC scored above 90 percent compliance in trailer arrival and departure scans as well
(see Chart 2). However, given the workarounds used, the actual compliance score as
reported may not be reliable. These scores are used as a basis for managers’ annual
ratings.

                         Chart 2. Oklahoma District and National
              Trailer Scanning Compliance Scores FY through May 3, 2013




                Source: SVWeb.

As a result, the SV scan compliance performance scores for some area and district staff
may have been artificially inflated. This information was provided to the OIG, Office of
Investigations, for action as appropriate. Further, this renders the SV system unreliable
and not a useful tool for decision making in the Oklahoma District. Management was not
able to take advantage of the SV system to optimize the transportation network,
including using SV calculated mail volumes to adjust trips. For example:

    The Oklahoma District could improve the effectiveness of scheduled HCRs and
     save more than $264,000 annually by modifying or eliminating 38 trips. The Postal
     Service could change these trips without negatively affecting on-time service
     because mail volume was low and mail could be consolidated on other trips.

    The Tulsa P&DC could more effectively manage PVS transportation processes and
     schedules by reducing driver workhours as well as associated fuel use. PVS
     schedules contained unneeded workhours, and the Postal Service spent more
     money than necessary because trips were underutilized and could be consolidated,
                                                 5
Surface Visibility – Transportation Operations                       NO-AR-13-007
 – Oklahoma District


        or did not run as scheduled. By eliminating 3,636 annual workhours from scheduled
        PVS routes, the Postal Service could save about $183,000 5 annually. See
        Appendix B for a detailed analysis on this topic.

Recommendations

We recommend the vice president, Southern Area Operations:

1. Ensure the containers coming from the mail processing operations have the proper
   barcoded placards so they can be scanned.
2. Eliminate the prescan barcode workarounds and any unnecessary manual inputs
   and follow prescribed scan procedures.
3. Put controls in place to prevent recurrence of improper scanning.
4. Retrain employees on the proper Surface Visibility policies and procedures
   regarding scanning.
5. Verify and document the elimination or modification of 38 trips from highway contract
   routes in the Oklahoma District and eliminate 3,636 workhours from Postal Vehicle
   Service trip schedules assigned to the Tulsa Processing and Distribution Center, or
   document the reasons for retaining the workhours.
Management’s Comments

Management agreed with the findings and recommendations, but disagreed with the
monetary impact. The disagreement is the result of the elimination of some of the trips
identified in the audit, additional cost savings from the elimination or modification to
other HCR trips not identified in the audit, and the time period used to determine the
savings.

In response to recommendation 1, management agreed to eliminate the use of
“preview” placards in place of the correct “barcoded” placards, and they plan on
continuing to monitor and enforce this policy. They expect to complete this process by
October 18, 2013.

In response to recommendation 2, management has mandated the destruction of
preprinted and photocopied barcodes and network specialists will ensure they are no
longer used to prescan trips. They expected to complete this process by October 4,
2013.

In response to recommendation 3, network specialists at each plant will ensure proper
scanning is taking place and will provide feedback to plant management for follow up or
corrective action. They expect to complete this process by October 18, 2013.


5
    PVS estimates savings include workhours and tort claims.

                                                          6
Surface Visibility – Transportation Operations                       NO-AR-13-007
 – Oklahoma District


In response to recommendation 4, all employees who scan will complete refresher SV
training and completion is expected by November 1, 2013.

Finally, in response to recommendation 5, management reviewed the 38 HCR trips and
workhours savings from PVS trips. Management eliminated 19 of the HCR trips we
identified and found additional or alternate trips to eliminate. Management will continue
to monitor routes for optimization. They also agreed to eliminate the 3,636 workhours
from PVS schedules that we identified. These changes will be implemented by
November 2, 2013. See Appendix D management’s comments.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations in the
report.

With regard to the monetary impact, management agreed with our $183,000 annualized
savings associated with the elimination of 3,636 workhours from PVS schedules at the
Tulsa P&DC. With regard to HCRs, management agreed with some of the trips we cited
and identified additional HCR trips not included in our audit for elimination and
modification. Management’s projected annualized savings of $296,575 for the HCR
adjustments exceeded the annual amount we identified. Overall, management’s actions
addressed our recommendations, and we will resolve any differences in monetary
savings from those identified in our report during the audit closeout process. Further,
regarding the time period used in our monetary impact calculations, it is standard OIG
policy to project the amount for 2 years.

The OIG considers all of the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                                 7
Surface Visibility – Transportation Operations                                         NO-AR-13-007
 – Oklahoma District


                                   Appendix A: Additional Information

Background

In 2004, SV was deployed to various Postal Service facilities, including P&DC, Surface
Transfer Center, and the former bulk mail centers 6 — now NDCs. Currently, SV is active
at 169 sites, including 121 P&DCs and 21 NDCs. SV is designed to provide the
following benefits:

      More accurate transportation utilization and tracking data.
      Real-time asset identification and tracking capabilities.
      Improved dock productivity tracking and performance.
      Elimination of manual data entries in TIMES.

Prior to implementation of the SV system, the Postal Service relied on manually entered
transportation utilization and tracking data into TIMES to perform transportation
analyses.

The goal of the SV system is to collect data at the handling unit (tray, tub, sack) level in
order to track volume through surface transportation. Employees use hand-held
scanners called Intelligent Mail Devices (IMD) to capture SV data.


                                      Figure 3. Intelligent Mail Device




                                 Source: OIG. IMD photograph taken October 24, 2012.

SV provides visibility into the volume of mail moving through various points in the
surface transportation network and records transportation dispatches and arrivals. It is
designed to allow managers to access detailed information needed to manage
resources, track mail volume, and identify network problems at Postal Service facilities
and take corrective action to improve performance. This includes using the SV data to
assess PVS and HCR routes for efficiency.


6
    Now currently called network distribution centers (NDC).

                                                               8
Surface Visibility – Transportation Operations                          NO-AR-13-007
 – Oklahoma District


PVS Operations. Postal Service network transportation that uses Postal Service
vehicles and employees is called PVS. Management typically assigns PVS vehicles and
personnel to Postal Service network facilities, such as NDCs or P&DCs in or near
metropolitan areas. PVS operations typically include yard operations in which PVS
drivers use spotter trucks to move or ‘spot’ trailers and equipment in or around a facility
yard. In the Oklahoma District, the Oklahoma P&DC does not use PVS; however, the
Tulsa P&DC has 19 drivers and 19 PVS schedules.

HCR Operations. The primary mode of surface transportation is contracted highway
transportation. HCR is a surface transportation route served by a Postal Service
contractor (a HCR supplier) to carry mail by highway between designated points. HCR
transportation costs the Postal Service about $3 billion annually. HCRs are managed at
the facility level under the guidance of area and headquarters transportation officials.

Objective, Scope, and Methodology

The objective was to assess SV use in transportation operations in the Oklahoma
District. During our work, we interviewed Postal Service officials at headquarters and at
the Oklahoma City and Tulsa P&DCs. We reviewed relevant Postal Service policies and
procedures, interviewed managers and employees, and observed and photographed
operations.

We tested the validity of SV data by comparing our observations to data recorded by
postal employees into SV. Our audit also included a review of HCR and PVS schedules
for opportunities for elimination or modification. We extracted HCR from Transportation
Contract Support System and PVS routes from Vehicle Information Transportation
Analysis & Logistics that detailed all routes servicing the Oklahoma and Tulsa P&DCs.
We analyzed the schedules along with SV data downloads into the TIMES. During our
analysis, we considered trailer utilization, type of mail carried, Dispatch of Value, Critical
Entry Times, and other operational service standards to identify opportunities for trip
elimination or modification.

We conducted this performance audit from January through September 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on August 29, 2013, and included their
comments where appropriate.

We assessed the reliability of SV data by comparing observations to electronic data and
by evaluation controls over data sources. We determined that the data were not
sufficiently reliable.



                                                 9
Surface Visibility – Transportation Operations                     NO-AR-13-007
 – Oklahoma District


 Prior Audit Coverage

                                                         Final
                                                        Report              Monetary
             Report Title            Report Number        Date                Impact
  Audit Report – Evaluation of        NL-AR-11-008     9/27/2011           $9,323,532
  Major Transportation
  Technology Initiatives
  Report Results:
  The OIG reviewed four technology initiatives, SV, Transportation Optimization,
  Planning, and Scheduling (TOPS), Postal Vehicle Service Management System
  (PVS-MS), and the Yard Management System Pilot (YMS Pilot). The Postal Service
  expensed more than $300 million on these transportation technology initiatives and
  none of them achieved all of their intended results. Specifically (1) the SV
  technology initiative was generally capable of functioning as planned, but it is not
  fully providing the intended transportation visibility, (2) the TOPS technology
  initiative was implemented for routing air transportation, but not for surface
  transportation (one of its major components) and long-range air route planning as
  originally designed, (3) the PVS-MS technology initiative was implemented to
  monitor driver and fleet performance, but lacked the necessary connectivity to
  function properly and was discontinued in 2008, and (4) the YMS Pilot technology
  initiative was implemented at two locations and improved yard efficiency through
  automation, but it did not replace all required manual processes. Management
  agreed with most of the findings and all of the recommendations.




                                                 10
Surface Visibility – Transportation Operations                           NO-AR-13-007
 – Oklahoma District


Appendix B: Assessment of Postal Vehicle Service and Highway Contract Routes
                    Using Surface Visibility Scan Data

SV is used to collect data required to support planning, management, and optimization
of the transportation network. It provides visibility into the volume of mail moving
through the surface transportation network. By using SV data, managers can access
detailed information needed to optimize HCR and PVS operations, manage resources,
track volume, and identify network problems at Postal Service facilities in order to take
corrective action to improve efficiency.

Prior to conducting our observations, we analyzed PVS and HCR schedules servicing
the Oklahoma and Tulsa P&DCs. As part of this analysis, we assessed trailer volumes
reported in TIMES and identified potential opportunities for trip elimination and
modification. We validated the data and our analysis through observations. We found
that PVS and HCR trips were not efficient and that some trips could be consolidated or
eliminated without negatively impacting on-time service due to low volume.

See Tables 1 and 2 for HCR mileage reductions, cost savings, and recommended
adjustments; and 3 for PVS hour reduction recommendations.


                            Table 1. Oklahoma District HCR
                       Recommended Route Reductions and Savings


                                                   Total
                                        HCR       Number      Annual
                                       Contract   of Trips   Mileage       Annual
                Facility               Number     Modified   Reduced      Savings
         Oklahoma City P&DC                           8         79,801   $    129,274
         Oklahoma City P&DC                           4          6,809         17,826
         Oklahoma City P&DC                           2            459            686
         Oklahoma City P&DC                          14          3,488         28,525
         Tulsa P&DC                                   2         33,311         53,449
         Tulsa P&DC                                   8         11,310         35,220
         Total                                       38        135,177   $    264,980
        Source: OIG analysis.




                                                  11
Surface Visibility – Transportation Operations                                            NO-AR-13-007
 – Oklahoma District



                               Table 2. Oklahoma District HCRs –
                             Summary of Recommended Adjustments


     HCR                                Trip
  Contract No.         Facility       Numbers       Frequency and Annual Trips               Recommendation
                                                 K67 Daily Except Saturdays,
                 Oklahoma City P&DC      1                                              Eliminate trip
                                                 Sundays, and Holidays 251.46
                                                 K67 Daily Except Saturdays,
                 Oklahoma City P&DC      2                                              Eliminate trip
                                                 Sundays, and Holidays 251.46
                                                                                        Eliminate Sundays only.
                 Oklahoma City P&DC     11       B7 Sundays and Holidays 62.18          Change Frequency to B
                                                                                        Holidays 10
                                                                                        Eliminate Sundays only.
                 Oklahoma City P&DC     12       B7 Sundays and Holidays 62.18          Change Frequency to B
                                                                                        Holidays 10
                                                                                        Eliminate Sundays only.
                 Oklahoma City P&DC     27       B7 Sundays and Holidays 62.18          Change Frequency to B
                                                                                        Holidays 10
                                                                                        Eliminate Sundays only.
                 Oklahoma City P&DC     28       B7 Sundays and Holidays 62.18          Change Frequency to B
                                                                                        Holidays 10
                                                                                        Eliminate Sundays only.
                 Oklahoma City P&DC     41       B7 Sundays and Holidays 62.18          Change Frequency to B
                                                                                        Holidays 10
                                                                                        Eliminate Sundays only.
                 Oklahoma City P&DC     42       B7 Sundays and Holidays 62.18          Change Frequency to B
                                                                                        Holidays 10
                                                                                        Eliminate Sundays only.
                 Oklahoma City P&DC     25       B7 Sundays and Holidays 62.18          Change Frequency to B
                                                                                        Holidays 10
                                                                                        Eliminate Sundays only.
                 Oklahoma City P&DC     26       B7 Sundays and Holidays 62.18          Change Frequency to B
                                                                                        Holidays 10
                 Oklahoma City P&DC     39       B7 Sundays and Holidays 62.18          Eliminate trip

                 Oklahoma City P&DC     40       B7 Sundays and Holidays 62.18          Eliminate trip
                                                 Q7 Daily Except Sundays and
                                                                                        Adjust frequency to K7 Daily
                                                 Holidays other than MLK's Birthday,
                 Oklahoma City P&DC      1                                              Except Sundays and
                                                 Washington's Birthday, Columbus
                                                                                        Holidays 303.07
                                                 Day and Veteran's Day 307.07
                                                 CC MLK's Birthday, Washington's
                 Oklahoma City P&DC      4       Birthday, Columbus Day and             Eliminate trip
                                                 Veteran's Day 4.0
                                                 9-887 Days following MLK's Birthday,
                 Oklahoma City P&DC     463      Washington's Birthday, Columbus        Eliminate trip
                                                 Day and Veteran's Day 4.0
                                                 9-887 Days following MLK's Birthday,
                 Oklahoma City P&DC     464      Washington's Birthday, Columbus        Eliminate trip
                                                 Day and Veteran's Day 4.0
                                                 9-887 Days following MLK's Birthday,
                 Oklahoma City P&DC     465      Washington's Birthday, Columbus        Eliminate trip
                                                 Day and Veteran's Day 4.0
                                                 9-887 Days following MLK's Birthday,
                 Oklahoma City P&DC     466      Washington's Birthday, Columbus        Eliminate trip
                                                 Day and Veteran's Day 4.0
                                                 9-887 Days following MLK's Birthday,
                 Oklahoma City P&DC     467      Washington's Birthday, Columbus        Eliminate trip
                                                 Day and Veteran's Day 4.0
                                                 9-887 Days following MLK's Birthday,
                 Oklahoma City P&DC     468      Washington's Birthday, Columbus        Eliminate trip
                                                 Day and Veteran's Day 4.0


                                                      12
Surface Visibility – Transportation Operations                                             NO-AR-13-007
 – Oklahoma District




     HCR                                  Trip
  Contract No.           Facility       Numbers      Frequency and Annual Trips               Recommendation
                                                  9-887 Days following MLK's Birthday,
                   Oklahoma City P&DC     469     Washington's Birthday, Columbus        Eliminate trip
                                                  Day and Veteran's Day 4.0
                                                  9-887 Days following MLK's Birthday,
                   Oklahoma City P&DC     470     Washington's Birthday, Columbus        Eliminate trip
                                                  Day and Veteran's Day 4.0
                                                  N1 Daily except Mondays, Holidays,
                   Oklahoma City P&DC     535                                            Eliminate trip
                                                  and days after Holidays 293.07
                                                  N1 Daily except Mondays, Holidays,
                   Oklahoma City P&DC     536                                            Eliminate trip
                                                  and days after Holidays 293.07
                                                  9-887 Days following MLK's Birthday,
                   Oklahoma City P&DC     543     Washington's Birthday, Columbus        Eliminate trip
                                                  Day and Veteran's Day 4.0
                                                  9-887 Days following MLK's Birthday,
                   Oklahoma City P&DC     544     Washington's Birthday, Columbus        Eliminate trip
                                                  Day and Veteran's Day 4.0
                                                  9-887 Days following MLK's Birthday,
                   Oklahoma City P&DC     553     Washington's Birthday, Columbus        Eliminate trip
                                                  Day and Veteran's Day 4.0
                                                  9-887 Days following MLK's Birthday,
                   Oklahoma City P&DC     554     Washington's Birthday, Columbus        Eliminate trip
                                                  Day and Veteran's Day 4.0
                   Tulsa P&DC              5      X7 Daily Except Sundays 313.07         Eliminate trip

                   Tulsa P&DC              6      X7 Daily Except Sundays 313.07         Eliminate trip

                                                  K1 Daily Except Mondays and
                   Tulsa P&DC              5                                             Eliminate trip
                                                  Holidays 309.21
                                                  K1 Daily Except Mondays and
                   Tulsa P&DC              6                                             Eliminate trip
                                                  Holidays 309.21
                                                  K1 Daily Except Mondays and
                   Tulsa P&DC             11                                             Eliminate trip
                                                  Holidays 309.21
                                                  K1 Daily Except Mondays and
                   Tulsa P&DC             12                                             Eliminate trip
                                                  Holidays 309.21
                                                  7X Sundays except Sunday Holidays
                   Tulsa P&DC             19                                             Eliminate trip
                                                  51.61
                                                  7X Sundays except Sunday Holidays
                   Tulsa P&DC             20                                             Eliminate trip
                                                  51.61
                                                  K16 Daily Except Saturdays,
                   Tulsa P&DC             29                                             Eliminate trip
                                                  Mondays, and Holidays 257.04
                                                  K16 Daily Except Saturdays,
                   Tulsa P&DC             30                                             Eliminate trip
                                                  Mondays, and Holidays 257.04
                 Trip Count               38
 Source: OIG analysis.




                                                       13
Surface Visibility – Transportation Operations                                            NO-AR-13-007
 – Oklahoma District



                 Table 3. PVS Schedules Recommended Hour Reductions 7

                                                                  Scheduled
                                           Tour of                 Annual      Total Annual   Annual Hours
            Facility           Schedule   Operation   Frequency     Miles         Hours        Eliminated
             Tulsa                           2           6X         4,665.54         309.40         309.40
             Tulsa                           2           6X         2,719.85         309.40         309.40

             Total Saturday Only                                    7,385.39         618.80         618.80

             Tulsa                           1           K7        32,731.56       2,424.34         399.04
             Tulsa                           1           K7        13,335.08       2,424.34         227.30
             Tulsa                           1           K7         8,485.96       2,399.18         227.30
             Tulsa                           1           K7        28,488.58       2,424.34         277.81
             Tulsa                           2          K67        14,132.05       2,011.41         398.15
             Tulsa                           2          K67        26,051.26       2,011.41         461.01
             Tulsa                           2          K67        18,306.29       1,990.43         251.46
             Tulsa                           2          K67         8,700.52       2,011.40         544.83
             Tulsa                           2          K67        11,592.31       2,011.41         230.51

            Total Daily Exception                                 161,823.61      19,708.26        3,017.41

                       Total                                      169,209.00      20,327.06        3,636.21

         Source: OIG analysis.




7
 Recommend that the two Saturday schedules be eliminated and the other schedules staffed by Non-Traditional Full-
Time Employees, as they will be less than 8-hour schedules.

                                                          14
Surface Visibility – Transportation Operations                                        NO-AR-13-007
 – Oklahoma District



                                     Appendix C: Monetary Impacts

We concluded that the Oklahoma District could eliminate or modify 38 trips from HCRs
identified during our audit for savings of about $265,000 annually or $524,000 over
2 years. We concluded they could eliminate 3,636 workhours from PVS trip schedules
assigned to the Tulsa P&DC identified during our audit for an average savings of about
$183,000 annually, or $368,000 over 2 years. These savings estimates are based on a
phase in of workhour reductions over years 2015 and 2016 and include tort claims cost
avoidance.
                                                                                                     2-Year
     Estimated Discounted Savings                   FY 2014          FY 2015         FY 2016          Total

    PVS Workhour Savings                                             $168,061        $167,075    $335,136

    Tort Claims Savings                                                 16,384         16,192         32,575

    Total PVS Estimated Savings                                      $184,444        $183,266    $367,711

    Elimination of 38 HCR Trips                      $264,980          259,023                       524,003
    Total Estimated PVS and HCR
    Savings                                          $264,980        $443,467        $183,266    $891,713



             Recommendation                        Impact Category                       Amount
                   3                            Funds Put to Better Use 8                $891,713




8
    Funds that could be used more efficiently by implementing recommended actions.

                                                         15
Surface Visibility – Transportation Operations                  NO-AR-13-007
 – Oklahoma District


                            Appendix D: Management's Comments




                                                 16
Surface Visibility – Transportation Operations        NO-AR-13-007
 – Oklahoma District




                                                 17
Surface Visibility – Transportation Operations        NO-AR-13-007
 – Oklahoma District




                                                 18
